Case: 20-1795

Document: 9-2

Filed: 01/08/2021

Page: 1

(2 of 5)

NOT RECOMMENDED FOR PUBLICATION
Nos. 20-1774/1795

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
JOSEPH F. OLIVARES,
Plaintiff-Appellant,
v.
MARK LONG, Director Michigan Worker’s
Compensation Agency, et al.,
Defendants-Appellees.

Jan 08, 2021
DEBORAH S. HUNT, Clerk

)
)
)

)
)
)
)

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF
MICHIGAN

)
)
)

ORDER

Before: SILER, CLAY, and THAPAR, Circuit Judges.

In these consolidated appeals, Joseph F. Olivares, a Michigan resident proceeding pro se,
appeals the district court’s judgment dismissing his 42 U.S.C. § 1983 complaint pursuant to
28 U.S.C. § 1915(e)(2)(B), as well as the district court’s order denying his post-judgment motion
for reconsideration. This case has been referred to a panel of the court that, upon examination,
unanimously agrees that oral argument is not needed. See Fed. R. App. P. 34(a).
To date, Olivares has filed at least five federal lawsuits challenging the enforcement of a
2005 order from the Michigan Workers’ Disability Compensation Agency, in which a magistrate
concluded that he was no longer entitled to wage-loss benefits for a workplace injury that he had
sustained in 1998. See Olivares v. Mich. Workers’ Comp. Agency, No. 18-12343, 2019 WL
4688738, at *1-2 (E.D. Mich. Sept. 26, 2019) (collecting cases). In June 2020, Olivares filed his
complaint in the instant matter. Liberally construed, Olivares alleged that Mark Long, the former
Director of the Michigan Workers’ Disability Compensation Agency, violated his right to due
process and state law by enforcing the magistrate’s 2005 order, which he claimed is void ab initio.

a2

Case: 20-1795

Document: 9-2

Filed: 01/08/2021

Page: 2

(3 of 5)

Nos. 20-1774/1795
-2Olivares also alleged that his former employer, Performance Abatement Services and Performance
Contracting Group, fraudulently concealed that its doctor had diagnosed him with a bruised
humeral head following his shoulder surgery in 1998, and that that injury was directly related to
his workplace injury. Olivares sought declaratory relief and reinstatement of wage-loss benefits.
The district court screened and sua sponte dismissed Olivares’s complaint with prejudice
pursuant to § 1915(e)(2)(B), after determining that Michigan’s three-year statute of limitations for
§ 1983 claims barred Olivares’s claims. Olivares’s appeal from that judgment was docketed in
this court as Case Number 20-1774. Olivares subsequently moved the district court, pursuant to
Eastern District of Michigan Local Rule 7.1, to reconsider its dismissal of his complaint. When
the district court denied his motion to reconsider, Olivares appealed from that order as well; that
appeal was docketed as Case Number 20-1795. On appeal, Olivares challenges the district court’s
dismissal of his complaint. He also moves for this court to void the magistrate’s 2005 order that
terminated his wage-loss benefits.
As a preliminary matter, Olivares filed his motion for reconsideration under Local
Rule 7.1, which “is like a motion to amend judgment under Federal Rule of Civil Procedure 59(e):
they both are vehicles for a litigant to ask a court to correct a mistake of law or fact.” Quatrine v.
Berghuis, 751 F. App’x 885, 888 (6th Cir. 2018). An appeal from an order denying a Rule 59(e)
motion permits us to review the underlying judgment. See Hood v. Hood, 59 F.3d 40, 43 n.l (6th
Cir. 1995) (per curiam).
We review de novo a district court’s dismissal of a complaint under § 1915(e)(2). Flanory
v. Bonn, 604 F.3d 249, 252 (6th Cir. 2010). Section 1915(e)(2) permits district courts to dismiss
a complaint that fails to state a claim for relief. “[A] complaint must contain sufficient factual
matter, accepted as true, to state a claim to relief that is plausible on its face.” Hill v. Lappin, 630
F.3d 468, 471 (6th Cir. 2010) (quoting Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)). When
reviewing a dismissal of a complaint for failure to state a claim, we construe the complaint “in the
light most favorable to [the plaintiff]; the allegations in the complaint are accepted as true, and all
reasonable inferences are drawn in his favor.” Gavitt v. Born, 835 F.3d 623, 639-40 (6th Cir.

2?

Case: 20-1795

Document: 9-2

Filed: 01/08/2021

Page: 3

Nos. 20-1774/1795
-32016). Additionally, pro se complaints are held to less stringent standards than formal pleadings
drafted by lawyers and therefore are liberally construed. See Williams v. Curtin, 631 F.3d 380,
383 (6th Cir. 2011).
The district court properly concluded that Olivares’s § 1983 claims were untimely because
he filed his complaint well after the expiration of Michigan’s three-year statute of limitations. See
Mich. Comp. Laws § 600.5805(10) (2013); see also Carroll v. Wilkerson, 782 F.2d 44 (6th Cir.
1986) (per curiam). Olivares argues that the district court erred in this regard because Michigan’s
fraudulent-concealment statute, if applicable, tolled the limitations period. See Mich. Comp. Laws
§ 600.5855. But we have held that plaintiffs who seek cover under section 600.5855 must plead
fraudulent concealment with particularity. See Evans v. Pearson Enters., Inc., 434 F.3d 839, 85051 (6th Cir. 2006). Consequently, Olivares needed to plead facts showing that: (1) the defendants
wrongfully concealed their actions; (2) he failed to discover “the operative facts that are the basis
of his cause of action” within the limitations period; and (3) he acted with due diligence until
discovering the relevant facts. Id. at 851 (quoting Dayco Corp. v. Goodyear Tire & Rubber Co.,
523 F.2d 389, 394 (6th Cir. 1975)).
Olivares’s complaint failed to meet these requirements. First, Olivares failed to explain
why the defendants’ actions allegedly amounted to wrongful concealment. Moreover, Olivares
failed to explain why his bruised humeral head is “the basis of his cause of action” under § 1983
rather than simply the evidence he needed to secure benefits in his state workers’ compensation
proceedings. Id. Finally, Olivares did not plead that he exercised due diligence until discovering
his bruised humerus, which he presumably could have discovered earlier had he sought medical
treatment on his own accord. Considering the foregoing, Michigan’s fraudulent-concealment
statute does not restart the clock for Olivares’s claims, and his lawsuit is thus time-barred.
Olivares’s complaint was subject to dismissal for other reasons as well. See Murphy v.
Nat'l City Bank, 560 F.3d 530, 535 (6th Cir. 2009) (holding that we may affirm on any basis
supported by the record). First, “[a]s a general rule, ‘[sjection 1983 does not . .. prohibit the
conduct of private parties acting in their individual capacities.’” Campbell v. PMI Food Equip.

(4 of 5)

Case: 20-1795

Document: 9-2

Filed: 01/08/2021

(5 of 5)

Page: 4

Nos. 20-1774/1795
-4Grp., Inc., 509 F.3d 776, 783 (6th Cir. 2007) (alteration and ellipsis in original) (quoting Lindsey
v. Detroit Ent., LLC, 484 F.3d 824, 827 (6th Cir. 2007)). We have stated that “[a] plaintiff may
not proceed under § 1983 against a private party ‘no matter how discriminatory or wrongful’ the
party’s conduct.” Tahfs v. Proctor, 316 F.3d 584, 590 (6th Cir. 2003) (quoting Am. Mfrs. Mut.
Ins. v. Sullivan, 526 U.S. 40, 50 (1999)). Olivares’s claims against Performance Abatement
Services and Performance Contracting Group thus do not state a plausible claim for relief.
Moreover, as we held in one of Olivares’s prior appeals, Olivares’s claims that Long and
his former employer somehow violated his due-process rights and state law during his unsuccessful
bid to secure additional wage-loss benefits for his workplace injury are barred by the doctrine of
collateral estoppel. See Olivares v. Performance Contracting Grp., No. 19-2357, slip op. at 4-5
(6th Cir. July 14, 2020) (order).
Considering the foregoing, the district court properly dismissed Olivares’s complaint under
§ 1915(e)(2). “[Wjhere de novo review of [an] underlying dispositive order shows no error, as is
the case here, there is no error in a decision refusing to reconsider it.” Scadden v. Werner, 677 F.
App’x 996, 999 n.l (6th Cir. 2017) (citing Henderson v. Walled Lake Consol. Sch, 469 F.3d 479,
496 (6th Cir. 2006)).
Accordingly, we DENY Olivares’s motion to void the magistrate’s order and AFFIRM
the district court’s judgment and order.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

2*

Case No. 20-cv-11763
UNITED STATES DISTRICT COURT EASTERN DISTRICT OF MICHIGAN SOUTHERN DIVISION

Olivares v. Long
Decided Jul 8, 2020

Case No. 20-cv-11763
07-08-2020
JOSEPH OLIVARES, Plaintiff, v. MARK LONG, and PERFORMANCE ABATEMENT SERVICES
PERFORMANCE CONTRACTING GROUP Defendants.
Paul D. Borman United States District Judge
David R. Grand United States Magistrate Judge

ORDER GRANTING APPLICATION TO PROCEED WITHOUT PREPAYING
FEES (ECF No. 2) and SUMMARILY DISMISSING ACTION
Before the Court is Plaintiff Joseph F. Olivares's Application to Proceed In Forma Pauperis. (ECF No. 2.) A
review of the application supports his claim of pauper status. The Court grants in forma pauperis status to
proceed without prepayment of the filing fee for this action. However, for the reasons set forth below, the Court
dismisses the action as frivolous and for failure to state a claim upon which relief may be granted.

2

Pursuant to the provisions of 28 U.S.C. § 1915(e)(2)(B), a district court may dismiss a complaint before service
on a defendant if it is satisfied that the action is frivolous, malicious, if it fails to state a claim upon which relief
may be granted, or if it seeks monetary relief from a defendant or defendants who is/are immune from such
relief. A complaint is frivolous "where it lacks an arguable basis either in law *2 or in fact." Neitzke v.
Williams, 490 U.S. 319, 325 (1989). In McGore v. Wrigglesworth, the Sixth Circuit clarified the procedures a
district court must follow when faced with a civil action filed by a non-prisoner proceeding in forma pauperis:
Unlike prisoner cases, complaints by non-prisoners are not subject to the screening process required by
§ 1915A. However, the district court must still screen the complaint under § 1915(e)(2)... Section
1915(e)(2) provides us with the ability to screen these, as well as prisoner cases that satisfy the
requirements of this section. The screening must occur even before process is served or the individual
has had an opportunity to amend the complaint. The complaint must be dismissed if it falls within the
requirements of § 1915(e)(2) when filed.
McGore v. Wrigglesworth, 114 F.3d 601, 608 (6th Cir. 1997) (overruled on other grounds by Jones v. Bock, 549
U.S. 199 (2007)); Smith v. Bernanke, 283 F. App'x 356, 357 (6th Cir. Jun. 26, 2008).
Federal courts hold the pro se complaint to a "less stringent standard" than those drafted by attorneys. Haines v.
Kerner, 404 U.S. 519, 520 (1972). However, pro se litigants are not excused from failing to follow basic
procedural requirements. Jourdan v. Jabe, 951 F.2d 108, 110 (6th Cir. 1991); Brock v. Hendershott, 840 F.2d
339, 343 (6th Cir. 1988).

^ casetext

1

6 Z

Olivares v. Long

3

4

Case No. 20-cv-11763 (E.D. Mich. Jul. 8, 2020)

Reading the Complaint liberally, Olivares alleges that Defendant Mark Long, the Director of Michigan's
Workers' Disability Compensation Agency, violated 42 U.S.C. § 1983 ("Section 1983") by enforcing a 2005
order entered by a magistrate within the agency that denied Olivares wage loss benefits as a result of an injury
to *3 his left shoulder. (ECF No. 1, Complaint, PgID 1-2, 4-7.) Olivares further alleges that Defendant
Performance Abatement Services Performance Contracting Group fraudulently concealed a diagnosis of a
bruised humeral head following Olivares's left shoulder surgery in 1988. (ECF No. 1, Complaint, PgID 3-4.)
This is at least the sixth time that Olivares has brought a federal court lawsuit alleging some version of these
claims against these and other defendants. See Olivares v. Mich. Workers' Comp. Agency, No. 18-12343, 2019
WL 4688738, at *1-2 (E.D. Mich. Sept. 26, 2019) [hereinafter Olivares I\ (collecting cases). His most recent
suit was initially dismissed as frivolous under 28 U.S.C. § 1915(e)(2)(B)(i) because the claims were barred by
the doctrine of collateral estoppel, Olivares v. Mich. Worker’s Comp. Agency, No. 18-12343, 2018 WL 4111908
(E.D. Mich. Aug. 29, 2018), but the Sixth Circuit vacated and remanded based on its finding that there was no
evidence that Olivares's alleged hernia had been adjudicated in the prior agency rulings. Olivares v. Mich.
Worker's Comp. Agency, No. 18-2369, 2019 WL 2299250 (6th Cir. Apr. 16, 2019). On remand, and after the
defendants, including Defendants here, Mark Long and Performance Abatement Services Performance
Contracting Group, filed Motions to Dismiss, the trial court dismissed the suit for failure to state a claim under
§ 1983 and under the doctrine of collateral estoppel because it found that Olivares had had an opportunity *4 to
litigate the issue of his alleged hernia. Olivares I, No. 18-12343, 2019 WL 4688738.
Olivares's other lawsuits arising from this same 2005 order of the Workers' Disability Compensation Agency
have been dismissed for lack of subject matter jurisdiction under the Rooker-Feldman doctrine, Olivares v.
Performance Contracting Grp., 76 F. App'x 603, 605 (6th Cir. 2003), and because his claims are barred under
Michigan's three-year statute of limitations for personal injuries, Olivares v. Michigan Comp. Agency, No. 1713994, 2017 WL 8792723 (E.D. Mich. Dec. 27, 2017).

5

The Sixth Circuit found, in 2018, that the Rooker-Feldman doctrine is inapplicable to decisions of the Michigan
Workers' Disability Compensation Agency, but that Olivares's claims were nevertheless barred by the statute of
limitations. Olivares v. Michigan Workers' Comp. Agency, No. 18-1048, Doc. 24-1 (6th Cir. Nov. 15, 2018)
[hereinafter Olivares II\. It further found that Olivares failed to plead fraudulent concealment with particularity
because he did not show: "(1) that the defendants wrongfully concealed their actions; (2) that Olivares failed to
discover 'the operative facts that are the basis of his cause of action' within the limitations period; and (3) that
Olivares acted with due diligence until discovering the relevant facts." Id. (citing Evans v. Pearson Enters.,
Inc., 434 F.3d 839, 850-51 (6th Cir. 2006)). *5
Olivares's new suit fares no better than his prior ones. First, Olivares filed this Complaint fifteen years after the
2005 order that allegedly harmed him, so this suit is barred by the three-year statute of limitations applicable to
§ 1983 claims. See Mich. Comp. Laws § 600.5805(2) (three-year limitations for personal injuries); Carroll v.
Wilkerson, 782 F.2d 44, 44 (6th Cir. 1986) (statute of limitations applicable to personal injuries applies to §
1983 claims).
Second, his attempt to extend the limitations period by invoking Michigan's fraudulent concealment statute
(Mich. Comp. Laws § 600.5855) falls well short. Fraudulent concealment must be plead with particularity. See
Evans, 434 F.3d at 850-51. As stated by the Sixth Circuit in Olivares II, this requires pleading facts showing:"
(1) that the defendants wrongfully concealed their actions; (2) that Olivares failed to discover 'the operative
facts that are the basis of his cause of action' within the limitations period; and (3) that Olivares acted with due
diligence until discovering the relevant facts." No. 18-1048, Doc. 24-1. Olivares's contention that Defendant

casetext

2

Olivares v. Long

6

Case No. 20-cv-11763 (E.D. Mich. Jul. 8, 2020)

Performance Abatement Services Performance Contracting Group's failure to disclose that Olivares had a bone
bruise on his humeral head in 1998 led to future doctors being unable to correctly diagnose his shoulder
problem does not show any of these factors. (ECF No. 1, Complaint, PgID 3-4.) Accordingly, Olivares's claims
arising out of a 1998 injury and a 2005 order are barred by the statute of limitations. *6
For the reasons set forth above, IT IS ORDERED that Plaintiffs Application to Proceed In Forma Pauperis
Without Prepaying Fees or Costs (ECF No. 2) is GRANTED. IT IS FURTHER ORDERED that the action is
DISMISSED with prejudice. Finally, IT IS FURTHER ORDERED that this action is frivolous under 28 U.S.C.
§ 1915(e)(2)(B). Any Appeal of this Order would be frivolous and would not be taken in good faith. 28 U.S.C.
§ 1915(a)(3); Coppedge v. United States, 369 U.S. 438, 445 (1962), McGore, 114F.3dat610-ll.ITIS SO
ORDERED. Dated: July 8, 2020
s/Paul D. Borman
Paul D. Borman
United States District Judge

s|| casetext

Case 2:20-cv-11763-PDB-DRG ECF No. 9 filed 07/31/20

PagelD.54

Page lot6

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
JOSEPH OLIVARES,
Case No. 20-cv-11763
Plaintiff,
v.

Paul D. Borman
United States District Judge

MARK LONG, and PERFORMANCE
ABATEMENT SERVICES
PERFORMANCE CONTRACTING GROUP

David R. Grand
United States Magistrate Judge

Defendants.

ORDER DENYING (\) PLAINTIFF’S MOTION FOR RECONSIDERATION
(ECF NO. 81: and (2) PLAINTIFF’S MOTION FOR EX PARTE ORDER TO
PROVIDE PLAINTIFF WITH DIAGNOSIS OF ABNORMAL SIGNALING
DEEP WITHIN THE HUMERAL HEAD. IN ORDER TO EFFECTUATE THE
2000 ORDERED TSIC1 HE SHALL RECEIVE REASONABLE AND
NECESSARY MEDICAL CARE FOR HIS ROTATOR CUFF INJURY (ECF
NO. 61
I.

Introduction

Before the Court are Plaintiff Joseph F. Olivares’s Motion for Reconsideration
(ECF No. 8), and his Motion for Ex Parte Order to Provide Plaintiff with Diagnosis
of Abnormal Signaling Deep Within the Humeral Head, in Order to Effectuate the
2000 Ordered [Sic] He Shall Receive Reasonable and Necessary Medical Care for
His Rotator Cuff Injury. (ECF No. 6.) Olivares seeks reconsideration of this Court’s
order dismissing Olivares’s Complaint for failure to state a claim and for being
frivolous. (ECF No. 4.) Olivares also wants the Court to order the defendants to

£. *

Case 2:20-cv-11763-PDB-DRG ECF No. 9 filed 07/31/20

PagelD.55

Page 2 of 6

provide him with a diagnosis of a left shoulder injury he sustained in 1998, which
he believes would entitle him to worker’s compensation benefits. (ECF No. 6,
Motion for Ex Parte Order, PgID 37-40.) Olivares also filed an addendum to his
Motion for Ex Parte Order. (ECF No. 7.)
The Court finds that Olivares’s Motion for Reconsideration fails to identify a
palpable defect in the Court’s reasoning, and therefore denies the motion. (ECF No.
8.) Accordingly, the Court finds that it is without power to grant Olivares’s Motion
for Ex Parte Order because the case has been dismissed, and so denies that Motion
as well. (ECF No. 6.)
II•

Standard of Review

“A motion for reconsideration [or rehearing] is governed by the local rules in
the Eastern District of Michigan, which provide that the movant must show both that
there is a palpable defect in the opinion and that correcting the defect will result in a
different disposition of the case.” Indah v. US. S.E.C., 661 F.3d 914, 924 (6th Cir.
2011). Eastern District of Michigan Local Rule 7.1(h)(3) provides:
Generally, and without restricting the court’s discretion, the court will
not grant motions for rehearing or reconsideration that merely present
the same issues ruled upon by the court, either expressly or by
reasonable implication. The movant must not only demonstrate a
palpable defect by which the court and the parties and other persons
entitled to be heard on the motion have been misled but also show that
correcting the defect will result in a different disposition of the case.

2

Jo

Case 2:20-cv-11763-PDB-DRG ECF No. 9 filed 07/31/20

PagelD.56

Page 3 of 6

E.D. Mich. L.R. 7.1(h)(3). “A ‘palpable defect’ is a defect which is obvious, clear,
unmistakable, manifest, or plain.” Michigan Dep’t ofEnvtl. Quality v. City ofFlint,
296 F. Supp. 3d 842, 847 (E.D. Mich. 2017).
“A motion for reconsideration [or rehearing] should not be used liberally to
get a second bite at the apple, but should be used sparingly to correct actual defects
in the court’s opinion.” Oswald v. BAEIndustries, Inc., No. lO-cv-12660,2010 WL
5464271, at * 1 (E.D. Mich. Dec. 30, 2010). It should not be “used as a vehicle to re­
hash old arguments or to advance positions that could have been argued earlier but
were not.” Smith v. Mount Pleasant Public Schools, 298 F. Supp. 2d 636, 637 (E.D.
Mich. 2003). It follows, then, that “parties cannot use a motion for reconsideration
to raise new legal arguments that could have been raised before a judgment was
issued,” Roger Miller Music, Inc. v. Sony/ATVPubl’g, All F.3d 383, 395 (6th Cir.
2007), and parties “may not introduce evidence for the first time in a motion for
reconsideration where that evidence could have been presented earlier.” Bank ofAnn
Arbor v. Everest Nat. Ins. Co., 563 F. App’x 473, 476 (6th Cir. 2014).
Analysis
Olivares argues that the Court erred by finding that his lawsuit, filed under 42
U.S.C. § 1983, was barred by the three year statute of limitations applicable to
§ 1983 claims because the Order issued by the Workers’ Compensation Agency
Board of Magistrates was “void ab initio” because the agency adjudicators lacked
3

*7

Case 2:20-cv-11763-PDB-DRG ECF No. 9 filed 07/31/20

PagelD.57

Page 4 of 6

subject matter jurisdiction, which means that the statute of limitations does not
apply. (ECF No. 8, Motion for Reconsideration, PgID 45, 49-50.) Olivares,
however, has failed to plead any facts to support his argument that the Workers’
Compensation Agency Board of Magistrates lacked jurisdiction over his claim when
Magistrate Christopher P. Ambrose issued the 2005 Opinion and Order that Olivares
now claims was void ab initio.
In his Complaint, Olivares argues that “there was no dispute before the
Magistrate in 2005,” which means that the Board of Magistrates lacked jurisdiction.
(ECF No. 1, Complaint, PgID 6,

10.) Olivares is correct that Michigan law requires

a dispute to vest the Board of Magistrates with jurisdiction:
A dispute or controversy within the meaning of M.C.L.A. § 418.847;
M.S.A. § 17.237(847) is a jurisdictional element. Its existence at the
time a claim is properly filed with the Workmen’s Compensation
Bureau vests the Bureau with jurisdiction over the claim. That
jurisdiction cannot be unilaterally divested by either party to the
dispute.
Adams v. Great Atl. & Pac. Tea Co., 81 Mich. App. 91, 94 (1978).
A dispute or controversy exists where either party demands a hearing or
commences proceedings to determine the claimant’s right to compensation
payments. See id. (“[T]he proceedings were commenced by plaintiff to determine
his disputed right to compensation payments from defendant.”); see also DeKind v.
Gale Mfg. Co., 125 Mich. App. 598, 608, (1983) (“M.C.L. § 418.847; M.S.A.

4

Case 2:20-cv-11763-PDB-DRG ECF No. 9 filed 07/31/20

PagelD.58

Page 5 of 6

§ 17.237(847) provides that an employer may dispute a claim and apply for a hearing
before a referee. If the employer chooses to demand a hearing, there is an ongoing
dispute.”) overruled on other grounds by Boden v. Detroit Lions, Inc., 193 Mich.
App. 203, (1992).
In 2004, Olivares filed an Application for Hearing to determine his rights to
compensation as a result of a 1998 workplace injury. (ECF No. 1,2005 Order, PgID
14.) That Application resulted in a trial before Workers’ Compensation Agency
Magistrate Christopher Ambrose, who determined that Olivares was entitled to
compensation from September 1, 2003 to May 20, 2005, thereby resolving the
dispute between Olivares and his former employer, Performance Abatement
Services. (Id. at PgID 14-25.) There is no question that Olivares’ Application for
Hearing created a dispute and therefore conferred jurisdiction on the Board of
Magistrates. The 2005 Order that Olivares now contests, was not void ab initio due
to lack of jurisdiction, but was the legally required resolution of a live dispute. See
Mich. Comp. Laws § 418.847(2) (“The worker’s compensation magistrate, in
addition to a written order, shall file a concise written opinion stating his or her
reasoning for the order including any findings of fact and conclusions of law.”)
Olivares’ other arguments about the validity of the 2005 Order focus on its
factual findings—specifically the finding that his shoulder problems were
degenerative and not the result of his 1998 workplace injury. (ECF No. 1, Complaint,
5

Case 2:20-cv-11763-PDB-DRG ECF No. 9 filed 07/31/20

PgID 6,

PagelD.59

Page 6 of 6

10.) A factual error does not render an adjudicative decision void, and

Olivares’ arguments on this point are frivolous. So, too, is his contention that he has
a due process right to an evidentiary hearing in this case. Under 28 U.S.C.
§ 1915(e)(2)(B), a district court may dismiss a complaint if the action is frivolous or
fails to state a claim before the defendant is even served, so it follows that there is
no right to an evidentiary hearing on claims dismissed under this statute.
The 2005 Order is valid and not subject to collateral attack. The statute of
limitations has run on the 42 U.S.C. § 1983 claim based on the 2005 Order that
Olivares now brings. Therefore, the Court did not err in dismissing this case as
frivolous and for failure to state a claim. Thus, the Court is without power to grant
Olivares’ Motion for Ex Parte Order because this case was correctly dismissed. (ECF
No. 4.) Accordingly, the Court denies Olivares’ Motion for Reconsideration (ECF
No. 8) and his Motion for Ex Parte Order (ECF No. 6).
IT IS SO ORDERED.

Dated: July 31, 2020

s/Paul D. Borman
Paul D. Borman
United States District Judge

6

7&

